imme  1QCKLE

Le ga 1 Bri e f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-51

BEN BRANCH, WM. CURTIS CONNER,
DEBORAH CURRAN, AND ANDRE MELCUK,
Petitioners,

v.
DEPARTMENT OF LABOR RELATIONS,
COMMONWEALTH EMPLOYMENT RELATIONS BOARD AND
MASSACHUSETTS SOCIETY OF PROFESSORS/MTA/NEA,
HANOVER TEACHERS ASSOCIATION/MTA/NEA,
PROFESSIONAL STAFF UNION/MTA/NEA,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of July, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF PACIFIC LEGAL FOUNDATION
IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority
Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DEBORAH J. LA FETRA
Counsel of Record
ERIN E. WILCOX
PACIFIC LEGAL FOUNDATION
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
Email: dlafetra@pacificlegal.org

Counsel for Amicus Curiae
Pacific Legal Foundation

Subscribed and sworn to before me this 25th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cee  C Clie Odie h, Ghle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38364
Attorney for Petitioners:

Bruce N. Cameron

National Right to Work Found
8001 Braddock Road, Suite 600
Springfield, VA 22160
Telephone: (703) 321-8510
Fax: (703) 321-9319

Email: bnc@nrtw.org

Attorneys for Respondents:

Timothy J. Casey

Assistant Attorney General

Government Bureau

Office of Attorney General Maura Healey
One Ashburton Place

Boston, MA 02108

Telephone: (617) 963-2043

Fax: (617) 727-5785

Email: Timothy.Casey@state.ma.us

Jeffrey W. Burritt

Staff Counsel — Office of the General Counsel
National Education Association

1201 16th Street, N.W.

Washington, D.C. 20036

Telephone: (202) 822-7231

Email: jburritt@nea.org
